Semiannual Report to Congress - April 1, 2000 through September 30, 2000
Semiannual Report to Congress
April 1, 2000 through September 30, 2000
Inspector General Letter
Agency Profile
Office of Inspector General
Audit Program
Investigations Program
Legislation, Regulations, and Policy
Liaison Activities
Information Required by the Act
Audit Reports by Subject Matter
Reports with Questioned Costs
Reports with Recommendations that Funds be put to Better Use
INSPECTOR GENERAL
NATIONAL LABOR RELATIONS BOARD
WASHINGTON, DC 20570
I hereby submit this Semiannual Report: April 1 - September 30, 2000, which summarizes the major activities and accomplishments of the Office of Inspector General (OIG) of the National Labor Relations Board (Agency). The submission of this report is in accordance with the Inspector General Act of 1978, as amended (IG Act). Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate committees or subcommittees of the Congress within 30 days of its receipt.
OIG issued one audit report and seven inspection memoranda.  In the investigations program, OIG processed 51 contacts, initiated 11 cases, and closed 9 cases.  The investigations resulted in two personnel actions this period, and one referral for prosecution.  We reviewed six bills, one Agency regulation, and one proposed standard.  Details on these accomplishments can be found in the body of this report.
Outreach efforts this period included updating three brochures on OIG operations.  These brochures and the audit, inspection, and semiannual reports for fiscal years 1999 and 2000 became the basis for an OIG web page as part of the Agency's official web site.  The web page became operational on September 28, 2000.
I appreciate the support of all Agency employees in achieving the accomplishments set forth in this report.  The Division of Administration was particularly helpful in a series of audits and inspections involving information technology, most recently the audit report issued this period.  A new management team began an overhaul of the information technology program about 3 years ago that required the extensive backfilling of holes that had prevented effective and efficient operations.  A significant amount of effort and progress has been made in the last 3 years, subject, at times, to the same budget constraints as other Agency programs.  Clearly much remains to be done in the information technology area, and we look forward to working with Agency personnel to improve operations.
Jane E. Altenhofen
October 31, 2000
AGENCY PROFILE
The National Labor Relations Board (NLRB or Agency) is an independent federal agency established in 1935 to administer the National Labor Relations Act (NLRA). The NLRA is the principal labor relations law of the United States, and its provisions generally apply to private sector enterprises engaged in, or to activities affecting, interstate commerce. NLRB jurisdiction includes the U.S. Postal Service (other government entities, railroads, and airlines are not within NLRB's jurisdiction.)
The NLRB seeks to serve the public interest by reducing interruptions in commerce caused by industrial strife. It does this by providing orderly processes for protecting and implementing the respective rights of employees, employers, and unions in their relations with one another. The NLRB has two principal functions: (1) to determine and implement, through secret ballot elections, the free democratic choice by employees as to whether they wish to be represented by a union in dealing with their employers and, if so, by which union; and (2) to prevent and remedy unlawful acts, called unfair fair labor practices, by either employers or unions or both.
NLRB authority is divided by law and delegation. The five-member Board primarily acts as a quasi-judicial body in deciding cases on formal records. The General Counsel investigates and prosecutes unfair labor practices before administrative law judges, whose decisions may be appealed to the Board; and, on behalf of the Board, conducts secret ballot elections to determine whether employees wish to be represented by a labor organization.
The Board consists of the Chairman and four members who are appointed by the President with the advice and consent of the Senate.  Board Members serve staggered terms of five years each. The General Counsel is also appointed by the President with the advice and consent of the Senate and serves a four-year term.
The present Board Members have served throughout this reporting period.
J. Robert Brame III, completed his term as a Board Member this period.  He served under a mid-term appointment from November 14, 1997, to August 27, 2000.
NLRB received an appropriation of $206,500,000 for Fiscal Year (FY) 2000, of which $783,000 was rescinded, to fund 1,947 full-time equivalents.  NLRB
Headquarters is at 1099 14th Street, NW, Washington, DC.
In addition to the Headquarters building, employees are located in 51 field offices throughout the country.  Three satellite offices for the Administrative Law Judges are located in Atlanta, San Francisco, and New York.  As of September 30, 2000, the field offices included 33 Regional Offices, 16 Resident Offices, and 2 Subregional Offices.  However, effective October 2, 2000, Region 33 ceased to exist and became a Subregion of Region 14.
Additional information about NLRB can be found on the web site www.NLRB.gov.
OFFICE OF INSPECTOR GENERAL
The NLRB established the Office of Inspector General (OIG) pursuant to the 1988 amendments to the Inspector General Act of 1978 (IG Act).
Resources
The FY 2000 OIG budget was $775,800 for operations, of which $65,000 was for contract services. In addition to the Inspector General, the OIG consists of a Counsel/Assistant Inspector General for Investigations, Assistant Inspector General for Audits, Special Agent, two Auditors, and a Staff Assistant.
Dave Berry was selected to fill the position of Counsel to the Inspector General, and entered on duty on May 22, 2000.  Prior to his selection, he had served as principal advisor to the Staff Judge Advocate for the Commandant of the Marine Corps regarding disposition of personnel matters related to criminal and official misconduct by senior executives and managers.
Trevor Gray, a law student at George Mason University School of Law, was selected for a Student Assistant position.  He entered on duty May 22, 2000.
In August 2000, the OIG hosted a student volunteer for one week.  This Government-wide program was designed to give participating agencies the opportunity to promote public service careers and to better prepare students for eventual entry into the workplace.  The Greater Washington Urban League Summer Youth Program and the Office of Personnel Management sponsored the program.  The student assigned to OIG provided assistance in completing the inspection of the Agency's telephone certification process.
AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate audits relating to program operations of the Agency. We issued one audit report and seven inspection memoranda.
Reports Issued
We issued audit report OIG-AMR-30-00-03, Review of Information Systems Security, on September 29, 2000. The OIG reviewed whether automated information systems at NLRB are adequately safeguarded. This review evaluated entity-wide security program planning, access controls, application software development and change controls, segregation of duties, system software controls, and service continuity controls.
Entity-wide security program planning was not in conformance with Office of Management and Budget (OMB) requirements. Policies, procedures, and standards to manage and guide agency information system security activities did not exist and reviews of general support systems or major applications to identify vulnerabilities, assess risk, and develop suitable cost-effective controls commensurate with identified risks were not performed.
Access controls over general support systems and financial systems need improvement. General support system weaknesses included a lack of written procedures to ensure that users' account privileges were properly established and assigned, and that security administrators were not fully trained and could not demonstrate a clear understanding of software security controls available and how to use them. Finance systems access control weaknesses included key employees sharing a common user account and password. Additionally, the Finance Branch Chief, Fiscal Operations Chief and Program Analyst have excessive privileges that could enable them to execute unauthorized transactions.
Application software development and change control weaknesses included: a system development life cycle methodology was not developed, which has contributed to delays in system development and implementation; system development and program changes were not documented; controls to test, review, and approve program changes before updating software were not in place; and a complete inventory of applications and programs was not maintained.
The Finance Branch has not developed adequate segregation of duty controls to prevent one person from performing incompatible functions, such as entering and approving vendor payments. For instance, the Finance Branch Chief is the security administrator for two financial systems and is also responsible for processing transactions for payment and for making software program changes. With these privileges, the Chief has the ability to independently enter and approve payments. Also, segregation of duty controls over the Finance Branch Program Analyst were inadequate to ensure that only authorized activities occur. The Analyst is responsible for all software changes and maintenance to the financial systems, and he can modify the data and output files. The Analyst's privileges also enable him to initiate transactions and modify data.
Service continuity controls over both financial and non-financial systems do not provide sufficient protection against the impact of a local or national disaster or significant business disruptions. The Finance Branch receives mainframe computer services through the National Institutes of Health, which has a continuity and recovery plan. NLRB is not covered by this plan and has not identified alternative backup and recovery procedures. The Information Technology Branch procedures are inadequate, primarily, because they store system back-ups onsite.
We recommended that the Director of Administration coordinate policy level steps, such as conducting a risk assessment, establishing an oversight committee, assigning security functions, and implementing training programs. We recommended that the Finance Branch Chief develop written procedures for software program changes and controls for the financial data systems. We recommended that the Information Technology Branch Chief develop procedures that cover new systems and program changes, existing control weakness, and information system recovery and service continuity.
Management agreed with 12 of the 16 recommendations.  The Information Technology Branch is in the midst of a modernization effort that will address most concerns.  A major improvement will be filling a senior Information Technology Security Officer position.
Management disagreed, in whole or in part, with four findings and the related recommendations to segregate duties in the Finance Branch for three financial data systems.  Management thought the manual compensating controls were adequate, and we thought several additional compensating controls were necessary.  Management and OIG agreed that the current financial systems need to be replaced within the next few years at which time the Finance Officer will no longer also serve as the security officer.
We issued Inspection Report No. OIG-INS-06-00-03, Review of Accounting and Reporting Systems in the Brooklyn Regional Office, on July 6, 2000. Our objective was to review functions that could affect the Agency's ability to prepare audited financial statements including financial management, backpay, time and attendance (T&A), and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability to prepare audited financial statements based upon Brooklyn's financial management. We determined that procedures provided reasonable assurance that management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The computer inventory did not accurately identify what equipment was assigned to Brooklyn or the location of the equipment within the office. Documentation supporting written approval of flex-time, compressed work schedules, the work-at-home program, and advance sick leave was not consistently maintained. Brooklyn did not consistently use leave request forms to document leave usage. Employees were allowed to accrue compensatory time in excess of Agency limits.  T&A reports were not initialed by the employee, timekeeper, or supervisor.
We issued Inspection Report No. OIG-INS-07-00-04, Review of Accounting and Reporting Systems in the Cleveland Regional Office, on July 6, 2000.  Our objective was to review functions that could effect the Agency's ability to prepare audited financial statements including financial management, backpay, T&A, and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability to prepare audited financial statements based upon Cleveland's financial management. We determined that procedures provided reasonable assurance that the management of backpay meets Agency objectives. We found that records accurately reflected capitalized and sensitive property. We also found that documentation supporting T&A such as written approval of work schedules, flex-time, granting of compensatory time, and authorizing the use of annual and sick leave were maintained. Bi-weekly T&A reports were initialed by the employee, timekeeper, and supervisor.
We identified two reportable issues. Clerical employees were scheduled to work a 7 1/2 rather than an 8 hour day, and advance sick leave was not granted in accordance with Agency policy.
We issued Inspection Report No. OIG-INS-08-00-05, Review of Accounting and Reporting Systems in the Seattle Regional Office, on July 6, 2000.  Our objective was to review functions that could affect the Agency's ability to prepare audited financial statements including financial management, backpay, T&A, and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability to prepare audited financial statements based upon Seattle's financial management. We also determined that procedures provided reasonable assurance that management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The official inventory of computer equipment and one maintained by Seattle were not in agreement, and neither inventory accurately identified what equipment was assigned to Seattle or the location of equipment within the office. Documentation supporting written approval of flex-time and compressed schedules was not maintained. Support staff approved leave taken by professional employees, and advance sick leave was not granted in accordance with Agency policy. Compensatory time was not regularly approved by supervisors, and was not recorded in the Agency's payroll system. Bi-weekly T&A reports were not initialed by the employee, timekeeper, or supervisor.
We issued Inspection Report No. OIG-INS-09-00-06, Review of Accounting and Reporting Systems in the Chicago Regional Office, on July 6, 2000.  The objective was to review functions that could affect the Agency's ability to prepare audited financial statements including financial management, backpay, T&A, and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability to prepare audited financial statements based upon Chicago's financial management. We determined that procedures provided reasonable assurance that management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The official inventory of computer equipment and one maintained by Chicago were not in agreement, and neither inventory accurately identified what equipment was assigned to Chicago or the location of the equipment within the office. Chicago did not use leave request forms to document leave usage, and advance sick leave was not granted in accordance with Agency policy. All compensatory time was not recorded in the Agency's payroll system, and compensatory time recorded in the payroll system was frequently not approved or did not agree with supporting records. Bi-weekly T&A reports were not initialed by the employee, timekeeper, or supervisor.
We issued Inspection Report No. OIG-INS-10-00-07, Review of Internet Web Site User Privacy, on July 28, 2000. We initiated this inspection to evaluate whether the NLRB web site practices and procedures meet the OMB requirements.  In June 2000, OMB issued a memorandum that states that each agency "should immediately review its compliance with its stated web privacy policies" and must include "a description of your privacy practices and the steps taken to ensure compliance with this memorandum" in the agency budget submission this fall. We suggested that the Agency submit this report with the submission on information technology.
We found that the NLRB web site practices and procedures comply with OMB requirements.  NLRB has on its web site a clear statement of its privacy policy.  This statement is clearly labeled and easily accessed by visitors to the web site.  We also found that NLRB adheres to the stated privacy policy, and that the NLRB web site does not use technology that can track the activities of users over time and across different web sites.
We issued Inspection Report No. OIG-INS-12-00-08, Review of Certification of Toll Calls, on August 21, 2000.  We initiated this inspection to evaluate whether telephone toll calls charged to the NLRB were certified as being for official business.  The Procurement and Facilities Branch (Facilities) could not demonstrate that the telephone toll calls charged to NLRB were certified in accordance with policy and procedures as being for official business.  We also found a lack of any meaningful management of the telephone toll call certification process.
We suggested that Facilities devise a new system for certifying telephone calls.  The new system would apply to the entire Agency and address a change in billing format from paper to CD Rom that began in May 2000.  We also suggested that NLRB policy and the certification form be updated.  We have begun to work with Facilities to develop a new system.
We issued Inspection Report No. OIG-INS-11-00-09, Review of Handicap Access, on September 8, 2000.  We initiated this inspection to determine whether the NLRB's leased office spaces met the requirements for handicap accessibility.  This inspection focused on the public's access to NLRB facilities, primarily reception areas, information officer rooms, and hearing rooms.  We found that NLRB offices generally met the standards for handicap accessibility, but had some common deficiencies.  Doors commonly presented problems because the knobs were difficult to use and some doors required too much force to open.  Hearing rooms often did not have wide enough pathways, platform areas did not have ramps, and designated spaces for handicapped seating were not provided.
We suggested that Facilities become more knowledgeable about handicap access requirements and more proactive in bringing NLRB office space into compliance.
Audit Follow-up.  Agreed upon actions were not completed within one year on one audit report:  Review of the Case Activity Tracking System (CATS), OIG-AMR-28, September 15, 1999.  Action is reportedly completed on two recommendations.  Actions on issuing and implementing a management plan to bring CATS to completion remain to be done on a third recommendation.
Ongoing Reviews
As of September 30, 2000, the ongoing reviews were of NLRB's Fiscal Year 1999 Accounting and Reporting Systems, the Alternative Workplace Program, Procurement of Court Reporting Services, and Property Controls Over ADP Items.
INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and coordinate investigations relating to the programs and operations of the Agency. OIG processed 51 contacts, initiated 11 cases, and closed 9 cases. The investigations resulted in two personnel actions and one referral for prosecution.
Case Workload   Contacts Processed
Open (4/01/2000)
14
Received
51
Initiated
11
Initiated Investigation
1
Closed
9
Opened Case -- Referred to Agency
3
Open (10/01/2000)
16
Non-Investigative Disposition
47
Outside Employment, Use of Government Resources, and Prohibited Political Activity.  An allegation of misconduct by a regional employee was initially reviewed by the Division of Operations-Management.  The Division found the employee had not received written approval for outside employment, did not comply with Agency leave policies, and used Agency resources on more than a de minimis basis.  The employee received a 5-day suspension for this misconduct.  After reviewing the basis for the disciplinary action, the OIG determined that the employee may have engaged in prohibited political activity in violation of the Hatch Act.  OIG subsequently forwarded the case to the Office of Special Counsel (OSC) for investigation.  OSC's investigtion is ongoing at this time.  (OIG-I-252(R))
Workers' Compensation Payment and Release of Non-public Information.  As part of a continuing investigation, OIG found that an employee fraudulently received compensation for a month after returning to work, and at a higher rate than she was allowed after her dependent turned 18 years old.  As previously reported, the amount of overpayment was $1,760.51, which is being recouped by the Department of Labor.  OIG also determined that the employee violated a Federal statute by improperly releasing a draft copy of an Administrative Law Judge's decision to a party of the litigation.  After the employee received a notice of proposed disciplinary action, the employee resigned from the Agency.  OIG referred this case for prosecution.  (OIG-I-198 and OIG-I-265)
Retaliatory Personnel Actions.  OIG received an allegation that a Regional Director was the subject of retaliatory personnel actions by the Office of the General Counsel.  After reviewing the allegation, OIG forwarded the allegation to OSC for review and possible investigation.  (OIG-I-275)
Use of a Government Vehicle.  OIG received an allegation that an employee used a Government vehicle for non-official transportation from work-to-home.  An OIG investigation substantiated the allegation.  We issued a report of investigation and suggested that management take appropriate administrative action in accordance with the statutory minimum penalty of a 1-month suspension for the misuse of a Government vehicle.  (OIG-I-271)
Sexual Harassment.  OIG received an anonymous complaint that an SES management official was displaying offensive cartoons on his office door, made crude comments, and allowed the staff to circulate inappropriate e-mail.  The official did use his office door to post cartoons and conceded that, and at times, he may have made crude statements. The official removed cartoons from his office door that may be considered offensive and distributed a statement to the staff affirming the Agency's policy against sexual harassment.  The Agency found that this response was sufficient, and that disciplinary action was not warranted.  OIG-I-263(R)
Children in the Workplace.  OIG was informed that an Agency employee was bringing her 2-year-old child to work on a regular basis for a month.  A subsequent investigation found that the employee brought her child to work for about 2 hours per day for approximately 3 weeks.  Although the Regional Office has an informal family friendly policy of accommodating employees by allowing them to bring children to work when circumstances arise that are beyond the employees' control, the actions of the employee in this case were not consistent with that policy.  After becoming aware of this situation, the Regional Director told the employee that she must arrange for child care during work hours.  The employee complied with this request.  The Agency found that this response was sufficient and that disciplinary action was not warranted.  (OIG-I-254(R))
Advancement of Sick Leave and Falsification of Time Records.  OIG received an allegation of misconduct that a regional employee was improperly advanced sick leave and that he falsified time records.  An investigation found that employee had been improperly advanced sick leave but that there was no evidence of falsification of time records.  Although the Agency determined that disciplinary action was not warranted, the Regional Director agreed to follow Government leave regulations in the future.  (OIG-I-266(R))
Travel Claims.  OIG was contacted by a confidential source who noticed questionable hotel receipts submitted over an extended period of time by an Agency employee with his travel vouchers.
Although the investigation did not disclose evidence of fraud, a review of the United States Fire Administration's Hotel-Motel Master List disclosed that three of the hotels used by the subject are not listed as being in compliance with the Hotel and Motel Fire Safety Act of 1990.  The subject was notified by memorandum that, while on official travel, it is his responsibility to ensure that he utilizes hotels and motels that comply with fire safety requirements. (OIG-I-270)
Hotline
Employees and members of the public with information on fraud, waste and abuse are encouraged to contact the OIG.  A log of telephone calls to a nationwide toll free number or the regular office numbers and a log of information received via mail and
facsimile are maintained.  All information received, regardless of the method used, is collectively referred to as HOTLINE contacts.
The information received over the hotline is the basis for the initial review for potential investigations. The information is analyzed to determine if further inquiry is warranted. Most HOTLINE contacts are calls from members of the public seeking help on an employment related problem or issues outside OIG and/or Agency jurisdiction. As appropriate, OIG refers these callers to:  the NLRB office; local, state, or federal agency; or private resource that is able to provide assistance.
During this reporting period, OIG received 51 hotline contacts, of which 32 were telephone calls and 19 were in writing. Four contacts resulted in OIG investigative cases.
To further publicize the hotline to Agency employees, the OIG designed an ad which was was included in the June 2000 edition of All Aboard.  The ad is reproduced on the inside back cover of this report.
LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations relating to programs and operations of the Agency and is to make recommendations concerning the impact of such legislation or regulations. Similarly, we review Agency and OIG policy. We reviewed six bills, one Agency regulation, and one General Accounting Office(GAO) proposed standard.
Legislation
H.R. 4670 Chief Information Officer of the United States Act of 2000 and H.R. 5024 Federal Information Policy Act of 2000.  Both bills seek to provide coordination of Federal information policy through the establishment of a Federal Chief Information Officer.
OIG provided input to a response addressing H.R. 4670 and H.R. 5024.  OIG commented that the current structure of the Chief Information Officer Council provides the necessary Government-wide structure to oversee both resource allocation and management direction while allowing agency heads to be responsible for the management of information technology investments.
We reviewed the following legislation:
S. 3144 Law Enforcement Powers of Inspector General Agents;
S. 3030 Fraud Recovery Bill;
S. 2705 Presidential Transition Act of 2000; and
S. 2712 Reports Consolidation Act of 2000.
Regulations
The Rules Revision Committee continued to work on proposed changes to existing Agency regulations developed in the prior period.  The changes implement the Freedom of Information Act (FOIA) mandated requirements for electronic communications and clarify how FOIA requests to the Inspector General for OIG documents are processed.
GAO Standard
The Inspector General provided comments to GAO on the Advisory Council's "Preliminary Views" on possible revisions to the organizational independence criteria in the Government Auditing Standards.  She stated that the proposed revision is unacceptable.  While the proposed revision effectively treats Presidentially appointed and Senate confirmed inspectors general as organizationally independent, the revision ignores that Congress intended and created the same level of organizational independence for the inspectors general appointed by the heads of the designated Federal entities (DFEs).  The revision fails to recognize that Congress provided all inspectors general with far more independence than could ever be afforded to public accounting firms.
GAO received similar comments from many Inspectors General.  They agreed that the proposed revision needed significant change and that a DFE inspector general be appointed to the Advisory Council.
Policy
In April 2000, the National Archives and Records Administration (NARA) recommended modifications to the proposed records schedule which authorizes the disposal of OIG files.  The Inspector General requested that the proposed schedule be withdrawn to allow time to properly review the modifications.
OIG also reviewed: (1) the E-Government Initiatives proposed on a website by Senators Fred Thompson and Joseph Lieberman, and (2) NARA's revised draft General Records Schedule for information technology records.
LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or coordinate relationships between the Agency and other Federal agencies, State and local governmental agencies, and nongovernmental entities. The Inspector General is to give particular regard to the activities of the Comptroller General of the United States, as head of GAO. Similarly, we encourage OIG staff members to participate in Agency programs and activities. OIG staff members are active in the inspector general community, agency activities, and select non-governmental entities. OIG met with GAO staff responsible for audits of NLRB programs and activities.  The OIG Strategic Plan was incorporated into the Agency Strategic Plan.
Inspector General Community
The Inspector General is a member of the Executive Council on Integrity and Efficiency (ECIE), which consists primarily of the inspectors general at the Federal entities designated in the 1988 amendments to the IG Act.  She participated in activities sponsored by the President's Council on Integrity and Efficiency (PCIE), which consists primarily of the Presidentially-appointed inspectors general.
The Inspector General is a member of an ECIE ad hoc committee addressing issues on auditor independence, and a PCIE/ECIE committee addressing one of the goals in the Strategic Plan.
The Counsel participated in the Council of Counsels to Inspectors General.
The Assistant Inspector General for Audits participated in the PCIE Government Performance and Results Act Group, the Office of Inspectors General Statistical Sampling Work Group, and the IT Roundtable.
Agency Activities
The Counsel is a member of the Government Paperwork Elimination Act (GPEA) Committee.  This committee was formed to ensure that the Agency meets the GPEA's October 2003 statutory deadline of providing a means for electronic transactions with the public as a substitute for paper.  To date, the committee identified the transactions that may be accomplished electronically and established a timeline for meeting the October 2003 deadline.  The Counsel is also a member of the Rules Revision Committee which develops changes to Agency procedural regulations.
An OIG Auditor is the NLRB Recreation and Welfare Association Treasurer.  The Association sponsors a variety of social and philanthropic activities for Agency employees.  In addition to serving as the financial administrator, he helped coordinate activities including a fishing trip and an excursion to Atlantic City.
Non-governmental Entities
The OIG Special Agent, as the Deputy Assistant Inspector General for Investigations, is the principal liaison officer to the federal law enforcement community.  As DeputyAssistant Inspector General for Investigations, he attended the Association of Inspectors General for Investigations. He is a member of the Liaison Officers Association, and currently serves on its executive board.  He was a member of the working group on Affirmative Civil Enforcement organized by the U. S. Attorneys Office in Baltimore until July 2000.
General Accounting Office
The IG Act states that each inspector general shall give particular regard to the activities of the Comptroller General of the United States with a view toward avoiding duplication and ensuring effective coordination and cooperation.
In March 2000, the Inspector General and Assistant Inspector General for Audits met with GAO Acting Associate Director of Health, Education, and Human Services Division, who has responsibility for audits of NLRB programs and activities.  The Inspector General requested that she be informed of GAO reviews involving NLRB.
GAO issued two reports entitled:
Worker Protection, OSHA Inspections at Establishments Experiencing Labor Unrest (GAO/HEHS-00-144), August 31, 2000
Internet Privacy, Agencies' Efforts to Implement OMB's 	Privacy Policy (GAO/GGD-00-191), September 5, 2000
These reports included no recommendations for the Board.
Strategic Planning
As recommended in a 1992 GAO report, OIG developed a 5-year Strategic Plan for FYs 1994 - 1999.  Subsequent feedback from OMB and congressional committees indicated that OIG could be part of the Agency strategic plan.  The Agency updated its Strategic Plan this period, and the Inspector General decided to include the OIG in the Agency plan.  The Agency Strategic Plan for FYs 2000 - 2006, that included a chapter for OIG, was submitted to Congressional committees in September 2000.
In addition, the inspector general community initiated a project to develop a strategic plan.  The Inspector General participated in the process to develop the plan and intends to adopt the final plan.
INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period are required by section 5(a) of the IG Act to be included in the semiannual reports.  These are set forth below:
Section 5(a)
(1),(2),(7)
OIG identified significant problems, abuses or deficiencies relating to the administration of information systems security (see page 4). For the purpose of this section, we used the definition of significant as set forth in the Federal Managers' Financial Integrity Act.
(3)
Corrective action has been completed on all significant recommendations which were described in the previous semiannual reports.
(4)
One matter was referred to prosecutorial authorities.  There were no prosecutions or convictions.
(5)
No reports were made to the Chairman that information or assistance requested by the Inspector General was unreasonably refused or not provided.
(6)
A listing by subject matter is located on page 22.
(8),(9)
One audit report was issued during this period; the report had no recommendations on questioned costs or funds that could be put to better use.  See Tables 1 and 2.
(10)
There are no audit reports issued before the commencement of the reporting period for which no management decision has been made by the end of the reporting period.
(11)
No significant revised management decisions were made during the reporting period.
(12)
There were no significant management decisions with which I am in disagreement.
AUDIT REPORTS BY SUBJECT MATTER
Report Title and Number
Questioned Costs
Unsupported Costs
Ineligible Costs
Funds To Be Put To Better Use
ADMINISTRATION
Review of Information Systems Security, OIG-AMR-30-00-03
0
0
0
0
Table 1 -- REPORTS WITH QUESTIONED COSTS
Dollar Value
Number of Reports
Questioned Costs
Unsupported Costs
A. For which no management decision has been made by the commencement of the period
0
0
0
B. Which were issued during the reporting period
0
0
0
Subtotals (A+B)
0
0
0
C. For which a management decision was made during the reporting period
0
0
0
(i) Dollar value of disallowed costs
0
0
0
(ii) Dollar value of costs not disallowed
0
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
0
Reports for which no management decision was made within six months of issuance
0
0
0
Table 2 -- REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number of Reports
Questioned Costs
A. For which no management decision has been made by the commencement of the period
0
0
B. Which were issued during the reporting period
0
0
Subtotals (A+B)
0
0
C. For which a management decision was made during the reporting period
0
0
(i) Dollar value of disallowed costs
0
0
(ii) Dollar value of costs not disallowed
0
0
D. For which no management decision has been made by the end of the reporting period
0
0
Reports for which no management decision was made within six months of issuance
0
0
Fraud Waste Abuse -
You can stop it!
Call the IG HOTLINE
800 736-2983
Or Write to the
Office of Inspector General
NLRB
1099 14th Street, NW
Washington, DC  20570